United States Department of Agriculture
Office of Inspector General




Review of the Department's Travel Card
Data




                                          Audit Report 50024-0003-13
                                          June 2013
                                         Review of the Department's Travel Card Data

                                                     Audit Report 50024-0003-13


What Were OIG’s
Objectives

Our objective was to identify
any inappropriate transactions
and determine if OCFO and
the agencies are performing
adequate monitoring of            OIG analyzed transaction data for USDA
employee travel card
transactions.
                                  employee travel cards in order to identify
                                  any inappropriate transactions and to
What OIG Reviewed                 determine if USDA is adequately monitoring
OIG looked at 6 USDA              employee travel card actions.
component agencies’ travel
card data for FY 2011 and,
from among 1.1 million            What OIG Found
transactions, identified 1,131
potentially inappropriate         The Office of Inspector General (OIG) identified a low incidence of
transactions. From the 1,131      cardholder misuse, and determined that the U.S. Department of
transactions, OIG selected a      Agriculture’s (USDA) Office of the Chief Financial Officer (OCFO)
statistical sample of 80 for      and five of six agencies reviewed were following guidelines.
further review. Based on the      However, we identified that 14 of 80 statistically sampled fiscal year
initial analysis, OIG then        2011 travel card charges were inappropriate because employees used
statistically selected an         the cards when they were not authorized for official travel. Although
additional sample of 97 of FS’    other USDA agencies identified such transactions and followed up
462,242 transactions for          appropriately, we found that the Forest Service (FS) did not identify
additional review.                nine of the inappropriate charges because FS was not performing
                                  adequate reviews of employee transactions. As a result, we took an
What OIG Recommends               additional statistical sample of FS transactions. We found 4.1 percent
                                  of the sampled FS transactions (all attributable to four employees)
FS should pursue disciplinary
                                  occurred during a time when the employees were not authorized for
action against four individuals
                                  travel. Further review of the four relevant employees’ travel card
who misused their USDA
                                  accounts disclosed that they had used their travel cards approximately
travel cards and immediately
                                  500 times without a travel authorization. FS did not detect this
implement procedures to
                                  because the checks FS performs are limited and did not identify the
review employees’ travel card
                                  instances we noted, and USDA does not currently have an automated
transactions to ensure they
                                  check to identify this type of misuse. Due to the misuse,
occur during approved travel
                                  four employees improperly used lines of credit on their travel cards to
dates.
                                  make personal charges totaling approximately $13,700. Further, two
                                  of these individuals’ accounts were delinquent by a combined total of
                                  more than $3,000. USDA does not allow employees to carry a
                                  delinquent balance as all official travel expenses are reimbursed to
                                  employees.

                                  OCFO and FS generally agreed with our recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          June 10, 2013

AUDIT
NUMBER:        50024-0003-13

TO:            Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathleen A. Donaldson
               Audit Liaison Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Review of the Department’s Travel Card Data


This report presents the results of the subject review. The written responses to the official draft
from the Office of the Chief Financial Officer (OCFO) and Forest Service (FS) are included at
the end of this report. Excerpts from these responses, both dated May 22, 2013, and the Office
of Inspector General’s position are incorporated into the applicable sections of the report.

Based on OCFO’s and FS’ responses, we have reached management decision on all of the
report’s recommendations. No further response by your agency or FS to this office is required.
Please follow your internal agency procedures in forwarding final action correspondence to
OCFO. Also, please note that Departmental Regulation 1720-1 requires final action to be
completed within 1 year of the date of management decision to preclude being listed in the
Department’s annual Agency Financial Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.

cc:
Thelma Strong, Chief Financial Officer, Forest Service
 Attn: Agency Liaison Officer
Table of Contents

Background and Objectives ................................................................................ 1
Section 1: Cardholder Oversight Could be Improved ...................................... 3
Finding 1: Cardholders Used Government Travel Cards for Personal
Expenses ............................................................................................................... 3
         Recommendation 1 to FS ........................................................................... 4
         Recommendation 2 to FS ........................................................................... 5
         Recommendation 3 to OCFO .................................................................... 5
Scope and Methodology ....................................................................................... 7
Abbreviations ....................................................................................................... 9
Exhibit A: Sampling Methodology and Projections – 50024-0003-13 ............ 10
Agencies’ Responses........................................................................................... 13
Background and Objectives 
Background
The Travel and Transportation Reform Act of 1998 mandates the use of travel charge cards to pay
for most official Government travel expenses.1 The Department of Agriculture (USDA)
developed its travel card program to procure transportation services and other allowable
expenses such as hotel, rental car, and meal expenses that employees incur during official travel.
USDA’s Office of the Chief Financial Officer (OCFO) establishes policies and procedures
governing the use of the program, the goal of which is to substantially reduce USDA’s cash
requirements by diminishing the need for travel advances while also improving internal controls
and administrative procedures.2

Federal agencies select travel card services from among banks that the General Services
Administration has approved, and contract with them according to guidance that the Office of
Management and Budget has issued. USDA has selected US Bank to provide VISA travel cards
to USDA employees. To be issued a travel card, employees must complete an online training
module outlining the policies governing travel card use, and also must sign an agreement stating
they understand these policies.3 The Government reimburses travelers for authorized expenses
and employees are responsible for paying their account balances. Although the Government is
not liable for the improper use of the travel card, employees cannot use the privilege of a
Government travel card for personal use and are not permitted to use any benefits of their
position, such as a line of credit, for personal gain. USDA has a zero-tolerance policy that
prohibits certain activities, including unauthorized charges, charges not associated with official
travel, and account delinquency.4

US Bank provides USDA and the managers of its component agencies with transaction data that
they can access through an online US Bank transaction system. USDA and agency managers are
to use this information to verify cards are used appropriately and paid timely. OCFO uses the
transaction data to generate a monthly report with a sample of potential travel card misuse and
supplies it to the agencies to research and determine the validity of the transactions. Agencies
can also analyze the data to identify additional cases of potential misuse. OCFO encourages
agencies to pursue data mining techniques to the extent they deem appropriate.

USDA policy is that employees will use the Govtrip travel planning system to arrange official
Government travel. The system also tracks authorizations for employee travel. The bank’s
transaction system and the travel planning system are two independent systems that USDA has not
integrated so that data from the two can be simultaneously analyzed. For instance, it is not

1
  Public Law 105-264, Travel and Transportation Reform Act of 1998, October 19, 1998.
2
  Departmental Regulation (DR) 2300-001, Government Travel Card Regulation, Section 1, October 20, 2003.
3
  DR 2300-001, Government Travel Card Regulation, Appendix A, October 20, 2003.
4
  DR 2300-001, Government Travel Card Regulation, Section 5, October 20, 2003.

                                                                      AUDIT REPORT 50024-0003-13           1
possible to generate an automated report linking employees’ transaction data from the bank and
their travel status authorization dates in the travel planning system.

In fiscal year (FY) 2011 USDA’s component agencies processed about 1.4 million travel card
transactions totaling nearly $185 million. Approximately 1.1 million of these transactions were
from the following six agencies: Agricultural Research Service, Animal and Plant Health
Inspection Service, Farm Service Agency; Forest Service (FS), Natural Resources Conservation
Service, and the Office of the Chief Information Officer. Among these agencies, FS had the
most travel card transactions—over 675,000 transactions. With approximately 22,000 employee
travel cardholders, FS is responsible for over one-third of the Department’s travel cards.

During our review, OIG identified 1,131 travel card transactions (about $310,000), out of the
approximately 1.1 million transactions (about $134 million) from the 6 agencies, as potentially
inappropriate because they involved merchants in certain questionable categories. For instance,
OIG identified transactions involving retailers identified as florists, bowling alleys, and
amusement parks. From these 1,131 transactions, OIG selected a statistical sample of 80 travel
card transactions (about $22,000) for further review. To identify potential travel card misuse, we
reviewed data from the bank’s online transaction system and data in the Department’s travel
planning system. Because the two systems do not share data automatically, we manually
compared transaction dates listed on the bank reports to travel authorization dates listed in the
travel planning system to identify transactions that took place when the cardholder may not have
been in travel status.

OIG determined 14 of these 80 transactions did not have a corresponding authorization for the
date of the transaction.5 To determine the legitimacy of the transactions, OIG contacted the
respective agencies for these 14 transactions. Of the 14 inappropriate transactions, the respective
agencies had identified and taken follow-up actions on 4. Follow-up actions can include, for
instance, additional training on travel card rules or disciplinary actions. However, FS, the
agency responsible for nine of the transactions, had not identified the transactions as
inappropriate.6 As a result, we selected another sample that focused solely on FS, and the results
are discussed below. We did not identify any other significant issues during our review of the
USDA travel card, as the questionable merchant category purchases were reasonably justified,
and we did not identify any other instances of travel card purchases by employees who were not
on authorized travel.

Objectives
The objective was to identify any inappropriate transactions and to determine if OCFO and the
agencies are performing adequate monitoring of employee travel card transactions.




5
 Each of the remaining 66 transactions had a travel authorization for the dates of the transaction.
6
 One of the 14 identified employees was no longer with the Department and the responsible agency was unable to
determine what, if any, action had been taken.

2     AUDIT REPORT 50024-0003-13
Section 1:  Cardholder Oversight Could be Improved 

Finding 1: Cardholders Used Government Travel Cards for Personal
Expenses
Our analysis of a statistical sample of 97 FS travel card transactions disclosed that four
individuals (4.1 percent) used their card while not authorized for travel.7 Based on the results of
this sample, we estimate that 19,062 of the agency’s approximately 460,000 travel
card transactions may have occurred while the employee was not authorized for travel.
Additionally, those four employees used their travel cards at least 500 times while not traveling
for Government business. This was not detected because the checks FS performed are limited
and did not identify transactions made when users were not authorized for official travel.
Although USDA has automated checks and fraud detection tools for other types of misuse, for
example transactions with inappropriate vendors, it is not currently able to automatically
reconcile travel card use with approved travel dates. The four employees improperly used lines
of credit on their travel cards to make personal charges totaling approximately $13,700 during
FY 2011.

USDA’s travel card policy specifies that employees cannot use the privilege of a Government
travel card for personal use.8 Further, Federal employees are not permitted to use any benefits of
their positions, such as a line of credit, for personal gain.9 USDA regulations state there is a
zero-tolerance policy for any inappropriate charges, including purchases of inappropriate items,
charges not occurring during official travel, and for delinquent accounts.10 Each agency has
travel program personnel who are primarily responsible for using the resources and reports
available from OCFO and US Bank to detect cardholder misuse. Travel program personnel are
required to monitor data for potential travel card misuse.11

Based on our review, we found 4 of these 97 transactions did not have a corresponding travel
authorization. Based on the sample, we project 19,062 (4.1 percent) of FS’ travel card
transactions occurred while the employee was not in official travel status.12 Reviews of the four
employees who initiated these transactions determined that the employees used their travel cards
approximately 500 times during FY 2011 while not in official travel status for a total of about
$13,700. These charges included purchases at restaurants, gas stations, and grocery stores as


7
  Using Audit Command Language (ACL) data analysis software, we selected a random sample of 97 of FS’ 462,242
transactions from fiscal year 2011. The universe of transactions excluded all payments to US Bank and charges
made through USDA travel planning systems. We determined that four of the charges, which were made by four
cardholders, were inappropriate.
8
  DR 2300-001, Government Travel Card Regulation, Section 5, October 20, 2003.
9
  5 Code of Federal Regulations § 2635.701-705, February 15, 2013.
10
   DR 2300-001, Government Travel Card Regulation, Section 5, October 20, 2003.
11
   DR 2300-001, Government Travel Card Regulation, Section 6, October 20, 2003.
12
   We are 95- percent confident that this estimate is between 443 and 37,680 transactions. For additional statistical
design and analysis information, see Exhibit A.

                                                                          AUDIT REPORT 50024-0003-13               3
well as cash withdrawals at ATMs. Further, two of these individuals’ accounts were delinquent
at the end of the fiscal year, by a total of more than $3,000. USDA policy does not allow
employees to carry a delinquent balance as all official travel expenses are reimbursed to the
employee.13

When we asked FS management officials about the agency’s monitoring of travel card
transactions, they stated that their travel card monitoring function is centralized and they have
limited resources to monitor travel card use. Currently, FS does not do any additional
monitoring outside of reviewing and following up on the monthly reports provided by OCFO.
Matching travel dates with transaction dates is a manual process because the system for travel
planning and the system for travel transactions are not integrated into a single data source. With
more than 675,000 travel card transactions to monitor each year, the volume is overwhelming for
the FS travel management personnel. However, OIG notes that FS could distribute this volume
of transactions more widely, for instance, to employees’ supervisors. OIG observed that in
another agency, the supervisors of employees authorized to travel are given data by travel card
monitoring personnel to review. Providing FS’ supervisors with procedures for assessing
whether travel cards are used only during authorized travel periods would improve the detection
of personal use of the travel card.

Given that the manual process of reviewing transaction card data and travel authorization data
can be time consuming, automating the process could increase the efficient administration of
USDA’s travel card program. Currently, OCFO is in the process of contracting for a new travel
system and should consider the feasibility of integrating the data from the travel planning system
with data from the bank’s transaction system. Alternatively, OCFO could determine if
developing an automated report that integrates data from the two systems is feasible. OCFO
management stated that any changes requiring funding are not feasible at this time. We noted
that having supervisors manually review their employees’ travel transactions would be a less
costly, but still effective, alternative to developing or altering an automated system.

USDA’s oversight of its travel card program should ensure that employees do not use their cards
for prohibited purposes. Additional monitoring and data integration could improve the
Department’s ability to detect if employees use their cards for purposes other than for official
Government travel expenses. Further, agencies need to ensure that someone is monitoring
transactions in order to uphold the Department’s zero-tolerance policy. By taking these steps,
USDA can enhance the integrity of its travel card program.

Recommendation 1 to FS
Review the travel card activities on the four staff persons who misused their Government travel
cards and pursue appropriate disciplinary action. Provide to OIG the results of the FS’ actions
concerning the four FS staff persons.




13
     DR 2300-001, Government Travel Card Regulation, Section 5, October 20, 2003.

4        AUDIT REPORT 50024-0003-13
Agency Response
FS agrees with this recommendation. The agency has determined that three of the four staff
persons are no longer employees of the agency. The remaining person is still an employee and
their list of inappropriate transactions has been forwarded to Employee Relations for disciplinary
action. FS estimates completion by September 30, 2013.

OIG Position
We accept FS’ manangement decision on this recommendation.


Recommendation 2 to FS

Immediately implement a procedure to identify personal use of the travel card. Follow up and
identify other potential misuse of the Government travel cards and pursue appropriate
disciplinary actions. Provide the results of FS’ review to OIG.

Agency Response
FS agrees with this recommendation. The agency has an existing procedure in place to identify
potential misuse. FS will continue to evaluate the effectiveness of this procedure and will
identify a method to improve and report results. FS estimates completion by April 30, 2014.

OIG Position
We accept FS’ manangement decision on this recommendation.


Recommendation 3 to OCFO

Determine the feasibility of integrating transaction card data and travel authorization data to
provide an automated tool USDA can use to determine if an employee uses a travel card while
not on travel status once the new travel system is selected and implemented.

Agency Response
OCFO will perform a feasibility analysis in conjunction with the Office of Procurement and
Property Management who holds the Individually-billed Account/Centrally-billed Account travel
charge card contract for USDA. Currently, there is insufficient information within the financial
system and travel system to automate detection of charges outside an authorized travel period.
OCFO estimates completion by September 30, 2013.


                                                              AUDIT REPORT 50024-0003-13          5
OIG Position
We accept OCFO’s manangement decision on this recommendation.




6    AUDIT REPORT 50024-0003-13
Scope and Methodology 
To accomplish our objective, we reviewed Departmental and agency regulations, policies, and
procedures related to travel card use. We interviewed OCFO and agency officials to determine
how they were monitoring travel card use. We also evaluated reports from prior travel card
reviews.14

We obtained transaction data from US Bank and analyzed it using the Audit Command
Language (ACL) data analysis software. There were 1.4 million travel card transactions in FY
2011 for USDA totaling $185 million. Our review focused on approximately 1.1 million travel
card transactions from 6 judgmentally selected agencies: Agricultural Research Service, Animal
and Plant Health Inspection Service, Farm Service Agency, FS, Natural Resources Conservation
Service, and the Office of the Chief Information Officer.15 These transactions totaled $134
million.

Of the 1.1 million transactions from the six agencies, we identified 1,131 transactions (about
$310,000) using targeted words found in the Merchant Category Code description. 16 For
instance, OIG identified transactions involving retailers identified as florists, bowling alleys, and
amusement parks. From the 1,131 potentially inappropriate transactions, we statistically
sampled 80 transactions (about $22,000) to verify if they were appropriate and to determine if
the agencies were adequately monitoring these transactions.

Our review was designed to examine transactions that:

     ·   Appeared to occur while the employee was not traveling
     ·   Were with a merchant with a blocked merchant category code
     ·   Appeared to be an excessive cash withdrawal

Based on the results of this initial review, we used ACL to generate an additional statistical
sample of all FS travel transactions for FY 2011. Using a universe of 462,242 FS transactions
(about $60.3 million), we selected 97 (about $8,600) to perform additional analysis of travelers
who used their cards while not on authorized travel. We did not discover any issues with
blocked merchant codes or excessive cash withdrawals.

14
   Audit 50601-05-HQ, Adequacy of Internal Controls Over the Individually Billed Travel Card Program, June
2003 and Audit 50601-04-HY, Adequacy of Internal Controls Over Travel Card Expenditures Followup,
September 2008.
15
   OIG originally selected these six agencies for Audit 50024-0001-13, Review of the Department’s U.S. Bank
Purchase Card and Travel Card Data. After fieldwork began, it was determined that separate reports needed to be
issued, so OIG split the audit into two separate audits: (1) review of OCFO purchase card and convenience check
data under Audit 50024-0001-13 and (2) review of OCFO travel card data under Audit 50024-0003-13. The six
agencies remained the same.
16
   A Merchant Category Code (MCC) is a four-digit code assigned by VISA to classify businesses according to the
type of products/services they provide. US Bank can use this code to automatically decline purchases from these
types of merchants based on USDA’s request.

                                                                       AUDIT REPORT 50024-0003-13             7
We conducted our audit work with representatives from OCFO and the six agencies. We met
with OCFO at headquarters in Washington, D.C. Data analysis and follow-up inquiries were
conducted from OIG’s Kansas City, Missouri, audit office. We used data from US Bank and
Govtrip to identify potential anomalies. We obtained an extract of the US Bank data for
FY 2011 and obtained read-only access to Govtrip. All anomalies identified were sent to the
agencies to determine their validity. We performed tests to ensure the data were valid (checking
for duplicates, confirming control totals), but did not audit the systems for data integrity. Our
reliance on the data was limited to performing our analysis, as all potential findings were
reviewed by the affected agency to determine their accuracy. Our audit period was June 2012
through March 2013.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




8    AUDIT REPORT 50024-0003-13
Abbreviations 
ACL ............................ Audit Command Language
DR .............................. Departmental Regulation
FS ............................... Forest Service
FY............................... Fiscal Year
OCFO ......................... Office of the Chief Financial Officer
OIG............................. Office of Inspector General
USDA ......................... Department of Agriculture




                                                                       AUDIT REPORT 50024-0003-13   9
Exhibit A:  Sampling Methodology and Projections – 50024-0003-13 
Objective:

This sample is designed to support OIG Audit 50024-0003-13. The audit objective was to
analyze transaction data for USDA employee travel cards in order to identify any inappropriate
transactions and to determine if OCFO and the agencies are performing adequate monitoring of
employee travel card transactions. To help achieve this objective, we developed a representative
random statistical sample of travel card transactions for review.

Audit Universe:

The universe list was provided to the OIG statistician by the audit team.

Our audit team obtained transaction data from US Bank and analyzed it using the Audit
Command Language (ACL) data analysis software. They extracted about 1.4 million travel card
transactions in fiscal year 2011 for USDA totaling $185 million. Our review focused on
approximately 1.1 million travel card transactions from 6 agencies: Agricultural Research
Service, Animal and Plant Health Inspection Service, Farm Service Agency, FS, Natural
Resources Conservation Service, and Office of the Chief Information Officer. These
transactions totaled $134 million. Negative (credit) transactions were excluded from this data
set.

OIG identified transactions using targeted words found in the Merchant Category Code
description. Those involved retailers identified as florists, bowling alleys, and amusement parks.
Based on the results of this analysis, of the 1.1 million transactions from the 6 agencies, the audit
team identified 1,131 transactions totally about $310,000. Our universe was defined by this set
of 1,131 potentially inappropriate transactions.

Sample Design:

We developed several design ideas to help us make informed decisions about which design
would be feasible for the objective of this audit. We considered various sample designs—simple
random, stratified, multi-stage selections, etc. To keep our sample size as low as possible, while
still achieving statistical representation of the universe, we used a simple random sample of 80
(totaling about $22,000) transactions for review. The sample was selected using the
randbetween function in Excel. The sample size was calculated based on the following factors:

     ·   Audit universe size 1,131 potentially inappropriate transactions.
     ·   Expected Error Rate—we did not know what range of error rate to expect to find. We
         assumed an expected error rate of about 30 percent.
     ·   Precision—we wanted to be able to report our estimates with a +/- 10 percent precision in
         an attribute testing scenario.


10       AUDIT REPORT 50024-0003-13
   ·   Confidence Level—we are using a 95 percent confidence level for reporting our
       estimates.

Based on the results of initial review, the audit team selected an additional sample of FS travel
card transactions only, because they wanted to determine the extent to which employees may
have been using their cards while not on authorized travel. The universe consisted of
462,242 transactions (totaling about $60.3 million), and was defined as all FS transactions
except: 1) negative transactions; 2) payments; 3) centrally billed accounts; and 4) transactions
with SATO/GovTrip. Any projections made will apply to this set of 462,242 FS travel card
transactions.

Auditors used ACL to generate a simple random sample of 97 transactions (totaling about
$8,600). The sample size was based on the following factors:

   ·   Audit universe size 462,242 FS transactions.
   ·   Expected Error Rate—we did not know what range of error rate to expect to find. We
       assumed an expected error rate of about 50 percent (most conservative measure).
   ·   Precision—we wanted to be able to report our estimates with a +/- 10 percent precision in
       an attribute testing scenario.
   ·   Confidence Level—we are using a 95 percent confidence level for the reporting our
       estimates.

Results:

Data provided to the statistician were analyzed using the complex sampling module of SPSS.
We are not using any projections to the initial universe containing six agencies because the
exceptions we identified related to FS transactions only. Hence, we are using the FS sample of
97 transactions to project to the FS universe of 462,242 travel card transactions only.
The summary below shows the results for the criterion our audit team took exceptions to.
Measures presented include the projected number of travel card transactions with exceptions, and
the estimated percentage of the FS universe having those exceptions. For each criterion estimate,
we show the projected amount (estimate), the upper and lower bounds at a 95 percent confidence
level, the actual values observed in the sample, and the absolute precision for the estimate.
Interpretation of the results is shown below the table.

                                                     95 Percent        Coefficient
                                      Standard   Confidence Interval       of        Margin of    Actual
      Criterion tested     Estimate     Error    Lower       Upper      Variation     Error       found
Travel card transactions
without proper              19,062    9,379.68       443      37,680          .492   +/- 18,619       4
authorization
as a percentage of the
universe                     4.12%        .020     0.10%      8.15%           .492   +/- 4.03%



                                                               AUDIT REPORT 50024-0003-13             11
Based on our sample results, we estimate that 19,062 (4.12 percent of the universe) of FS’ travel
card transactions occurred while the employee was not in official travel status. We are
95 percent confident that between 443 (0.10 percent of the universe) and 37,680 (8.15 percent of
the universe) travel card transactions have this exception.




12     AUDIT REPORT 50024-0003-13
Agencies’ Responses 




                  USDA’S
            FOREST SERVICE’S
                   AND
      OFFICE OF THE CHIEF FINANCIAL
                OFFICER’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 50024-0003-13   13
Forest                            Washington                           1400 Independence Avenue, SW
Service                           Office                               Washington, DC 20250


 File Code:   1430                                             Date:   May 22, 2013
 Route To:

   Subject:   Response to Office of the Inspector General Audit Report Number 50024-0003-13,
              " Review of US Bank’s Travel Card Data," Recommendation Numbers 1 and 2

       To:    Gil Harden, Assistant Inspector General for Audit, Office of Inspector General,
              USDA




Thank you for the opportunity to review and respond to the subject audit report. The FS

generally concurs with the report’s findings and recommendations to the agency. The response

outlines the actions proposed for the recommendations. Please contact Thelma Strong, Chief

Financial Officer, at (202) 205-0429 or tstrong@fs.fed.us with any questions.




/s/ Thomas L. Tidwell
THOMAS L. TIDWELL
Chief


cc: Peter Gilmour
Connie Desouza
Sandy T Coleman
Erica Y Banegas




                      America’s Working Forests – Caring Every Day in Every Way       Printed on Recycled Paper
====================================================================
                              USDA Forest Service (FS)
====================================================================
         Office of Inspector General (OIG) Audit Report No. 50024-0003-13
                        Review of US Bank’s Travel Card Data
                 Forest Service Response to the Official Draft Report

====================================================================
OIG Recommendation 1: Review the travel card activities on the four staff persons who
misused their Government travel cards and pursue appropriate disciplinary action. Provide to
OIG the results of the FS’ actions on the four FS staff persons.

FS Response: The FS generally agrees with this recommendation. The Agency has determined
that three of the four staff persons are no longer employees of the agency. The accounts have
been paid in full for two persons; and one person still has an outstanding balance which is in
charge-off status with the Bank. The remaining person is still an employee and his list of
inappropriate transactions was forwarded to Employee Relations and is awaiting disciplinary
action. The FS will provide the results of this action when resolution is complete.

Estimated Completion Date:                   September 30, 2013

---------------------------------------------------------------------------------------------------------------------

OIG Recommendation 2: Immediately implement a procedure to identify personal use of the
travel card. Follow up and identify other potential misuse of the Government travel cards and
pursue appropriate disciplinary actions. Provide the results of FS’ review to OIG.

FS Response: The FS generally agrees with this recommendation. The Agency has an existing
procedure in place to identify potential misuse and pursue appropriate disciplinary action. The
FS will continue to evaluate the effectiveness of this procedure and will identify and evaluate a
means to improve and report results.

The FS utilizes the USDA datamining tool (Visa IntelliLink) to provide a report of transactions
that are classified as potential misuse. The Agency then conducts research using GovTrip and
TRVL (for transfer of station) systems to determine if the traveler was on official business.
Additional U.S. Bank reports are pulled to determine if there are multiple potential transactions.
The datamining tool is updated with the findings. If it is determined the travel charge card was
used while not in official travel, the data is then forwarded to the appropriate Employee
Relations staff for further action.

In recent months, the Agency has been more attentive to travel card misuse and delinquencies.
The Travel Card Program staff and the employee relations community are working closely to
provide more information and educating the community on travel card misuse.

Estimated Completion Date:                   April 30, 2014




                                                   Page 1 of 1
United States
Department of
Agriculture

Office of the Chief
Financial Officer     TO:            Gil H. Harden
                                     Assistant Inspector General for Audit                May 22, 2013
1400 Independence                    Office of Inspector General
Avenue, SW

Washington, DC
20250                 FROM:          Jon M. Holladay      -S- Jon M. Holladay
                                     Deputy Chief Financial Officer

                      SUBJECT:       Review of the Departments’ Travel Card Data
                                     Audit No. 50024-0003-13, Official Draft Report


                      This responds to your request for Management’s response to the audit
                      recommendations in Audit No. 50024-0003-13, Official Draft Report, dated
                      April 19, 2013. The Management response is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202)720-1893.

                      Attachment




                                            An Equal Opportunity Provider and Employer
                 Review of USDA’s US Bank Travel Card Data
                         Audit No: 50024-003-13



Recommendation No. 3: Determine the feasibility of integrating transaction card data and
travel authorization data to provide an automated tool USDA can use to determine if an
employee uses a travel card while not on travel status once the new travel system is selected and
being implemented.

Management Response: The Office of the Chief Financial Officer (OCFO) will perform a
feasibility analysis in conjunction with the Office of Procurement and Property Management
who holds the Individually-billed Account (IBA)/ Centrally-billed Account (CBA) travel charge
card contract for USDA. Currently, there is insufficient information within the financial system
and travel system to automate detection of charges outside an authorized travel period.

Automation may reduce the administrative burden for supervisors; however, the cost of such a
system would need to be evaluated. The return on investment will need to be considered
comparing the cost of the investment and operation of a matching program.

Date Corrective Action Will be Completed: September 30, 2013

Responsible Organization: Financial Systems, Office of the Chief Financial Officer




                            An Equal Opportunity Provider and Employer
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
